   QUALITY CONTROL REVIEW OF
AUDITED FINANCIAL STATEMENTS FOR
        FY 2006 AND FY 2005
      Federal Aviation Administration

       Report Number: QC-2007-009
      Date Issued: November 14, 2006
           U.S. Department of
                                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Quality Control Review of Audited                                        Date:    November 14, 2006
           Financial Statements for FY 2006 and FY 2005,
           Federal Aviation Administration
           Report Number: QC-2007-009

  From:    Calvin L. Scovel III                                                          Reply to
                                                                                         Attn. of:   JA-20
           Inspector General

    To:    The Secretary
           Federal Aviation Administrator

           The audit of the Federal Aviation Administration’s (FAA) Financial Statements as
           of and for the years ended September 30, 2006 and September 30, 2005, was
           completed by KPMG LLP of Washington, DC (see Attachment). We performed a
           quality control review of the audit work to ensure that it complied with applicable
           standards. These standards include the Chief Financial Officers Act; Generally
           Accepted Government Auditing Standards; and Office of Management and Budget
           Bulletin 06-03, “Audit Requirements for Federal Financial Statements.”

           KPMG concluded that, except for the Construction in Progress 1 (CIP) balance and
           transactions, the consolidated financial statements present fairly, in all material
           respects, the financial position of FAA as of September 30, 2006 and September
           30, 2005, and its net costs, changes in net position, budgetary resources, and
           reconciliation of net costs to budgetary obligations for the years then ended, in
           conformity with accounting principles generally accepted in the United States.

           KPMG qualified its opinion because FAA was unable to provide sufficient
           evidence to support the accuracy and completeness of the CIP account balances or
           related transactions that may have occurred affecting net cost. In addition,
           because of the significance of the CIP balance, and adjustments that might result
           from management’s review of CIP, FAA was unable to represent that the CIP
           account balance totaling $4.7 billion, reported as a component of Property, Plant,


           1
               Construction in Progress is a component of the Property, Plant, and Equipment line, and represents assets that are
               under construction or that have not yet been placed into service.
                                                                             2


and Equipment in the footnote disclosure to the FAA Balance Sheet, was fairly
stated as of September 30, 2006.

The report presented one material internal control weakness, three reportable
conditions, and two instances of noncompliance with laws and regulations.

Material Weakness

   1. Timely Processing of Transactions and Accounting for the Construction in
      Progress Account

Reportable Conditions

   1. Monitoring of Grants
   2. Information Technology Controls over FAA and Third-Party Systems and
      Applications
   3. Management Oversight and Reporting of Inventory

Noncompliance with Laws and Regulations

   1. Federal Financial Management Improvement Act of 1996 (FFMIA)
   2. Antideficiency Act

KPMG made 28 recommendations for corrective actions; we agree with them and,
therefore, are making no additional recommendations. FAA concurred with the
material weakness, reportable conditions, and noncompliance; agreed with the
recommendations; and committed to implementing corrective actions during fiscal
year 2007. In accordance with DOT Order 8000.1C, the corrective actions taken
in response to the recommendations are subject to follow-up.

In our opinion, the audit work performed by KPMG complied with applicable
standards.

We appreciate the cooperation and assistance of FAA, Office of Financial
Management, and KPMG representatives. If we can answer any questions, please
call me at (202) 366-1959, or Rebecca C. Leng, Assistant Inspector General for
Financial and Information Technology Audits, at (202) 366-1496.

Attachment

                                      #
